    Audit Report




    OIG-07-015
    Audit of the Financial Management Service’s Fiscal Years 2006
    and 2005 Schedules of Non-Entity Government-Wide Cash
    November 20, 2006




    Office of
    Inspector General
    Department of the Treasury




0
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               November 20, 2006


            MEMORANDUM FOR KENNETH R. PAPAJ, COMMISSIONER
                           FINANCIAL MANAGEMENT SERVICE

            FROM:                   Michael Fitzgerald
                                    Acting Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:                Audit of the Financial Management Service’s
                                    Fiscal Years 2006 and 2005 Schedules of Non-Entity
                                    Government-wide Cash


            I am pleased to transmit the attached audited Financial Management Service’s
            (FMS) Fiscal Years (FY) 2006 and 2005 Schedules of Non-Entity Government-wide
            Cash (the Schedules). We contracted with the independent certified public
            accounting firm Clifton Gunderson LLP to audit the Schedules of Non-Entity
            Government-wide Cash for FY 2006 and 2005. The contract required that the audit
            be performed in accordance with generally accepted government auditing
            standards; applicable provisions of Office of Management and Budget (OMB)
            Bulletin No. 06-03, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by Clifton Gunderson LLP, are incorporated in the
            attachment:

                    •   Independent Auditor’s Report;
                    •   Independent Auditor’s Report On Internal Control; and
                    •   Independent Auditor’s Report On Compliance and Other Matters.

            In its audit of FMS’ Schedules, Clifton Gunderson LLP found:

                    •   the Schedules present fairly, in all material respects, the balance of
                        Non-Entity Government-wide Cash as of September 30, 2006 and 2005,
                        in conformity with accounting principles generally accepted in the United
                        States of America,
Page 2


        •   one matter involving internal control and its operation that is considered a
            reportable condition 1 (described below), and

        •   no instances of reportable noncompliance with laws and regulations tested.

Clifton Gunderson LLP concluded that there were general control weaknesses that
did not effectively prevent (1) unauthorized access to and disclosure of sensitive
information, or (2) ensure that connectivity to systems/applications are available
during a disaster. Collectively these findings indicated the lack of fully effective
entity-wide security management.

In connection with the contract, we reviewed Clifton Gunderson LLP’s reports and
related documentation and inquired of its representatives. Our review, as
differentiated from an audit in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on FMS’ Schedules or conclusions about the effectiveness of
internal control or compliance with laws and regulations. Clifton Gunderson LLP is
responsible for the attached auditor’s reports dated October 31, 2006 and the
conclusions expressed in the reports. However, our review disclosed no instances
where Clifton Gunderson LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789.

Attachment

cc:     Donald V. Hammond
        Fiscal Assistant Secretary




1
  Reportable conditions are matters coming to the auditor’s attention that, in his judgment, should be
communicated because they represent significant deficiencies in the design or operation of internal
control, which could adversely affect the organization’s ability to initiate, record, process, and report
financial data consistent with the assertions of management in the Schedule.
U. S. DEPARTMENT OF THE TREASURY,
  FINANCIAL MANAGEMENT SERVICE
           Washington, DC

 INDEPENDENT AUDITOR’S REPORTS
   AND SCHEDULES OF NON-ENTITY
     GOVERNMENT-WIDE CASH

     September 30, 2006 and 2005
                                              TABLE OF CONTENTS




                                                                                                                      PAGE

INDEPENDENT AUDITOR’S REPORT ...................................................................................1

INDEPENDENT AUDITOR’S REPORT ON
  INTERNAL CONTROL ............................................................................................................2

INDEPENDENT AUDITOR’S REPORT ON
  COMPLIANCE AND OTHER MATTERS.............................................................................5

SCHEDULES OF NON-ENTITY
 GOVERNMENT-WIDE CASH ................................................................................................6

NOTES TO THE SCHEDULES OF
 NON-ENTITY GOVERNMENT-WIDE CASH......................................................................7

ATTACHMENT – MANAGEMENT COMMENTS .................................................................9
                                          Independent Auditor’s Report


To the Office of Inspector General
 of the U. S. Department of the Treasury and the
 Commissioner of the Financial Management Service


We have audited the accompanying Schedules of Non-Entity Government-wide Cash of the
U. S. Department of the Treasury’s Financial Management Service (FMS) as of September 30,
2006 and 2005. These schedules are the responsibility of FMS’ management. Our responsibility
is to express an opinion on these schedules based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the schedule is free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
schedule. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall schedule presentation. We
believe that our audits provide a reasonable basis for our opinion.
In our opinion, the Schedules of Non-Entity Government-wide Cash referred to above present
fairly, in all material respects, the balance of Non-Entity Government-wide Cash managed by
FMS as of September 30, 2006 and 2005 in conformity with accounting principles generally
accepted in the United States of America.
In accordance with Government Auditing Standards, we have also issued our reports dated
October 31, 2006, on our consideration of FMS’ internal control over financial reporting relating
to Non-Entity Government-wide Cash and on our tests of FMS’ compliance with certain
provisions of laws and regulations and other matters relating to Non-Entity Government-wide
Cash. The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing and not to provide an opinion
on internal control over financial reporting or compliance. Those reports are an integral part of
our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.


a1
Calverton, Maryland
October 31, 2006


Offices in 15 states and Washington, DC                1
                               Independent Auditor’s Report On Internal Control


To the Office of Inspector General
 of the U. S. Department of the Treasury and the
 Commissioner of the Financial Management Service


We have audited the Schedule of Non-Entity Government-wide Cash of the U. S. Department of
the Treasury’s Financial Management Service (FMS), as of September 30, 2006, and have issued
our report thereon dated October 31, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and applicable provisions of Office of Management and Budget (OMB)
Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.
In planning and performing our audit, we considered FMS’ internal control over financial
reporting for Non-Entity Government-wide Cash by obtaining an understanding of relevant
internal controls, determined whether these internal controls had been placed in operation,
assessed control risk, and performed tests of controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the schedule. We limited our internal
control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 06-03. We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982, such as those controls relevant
to ensuring efficient operations. The objective of our audit was not to provide assurance on
internal control. Consequently, we do not provide an opinion on internal control.
Our consideration of the internal control over financial reporting for Non-Entity Government-
wide Cash would not necessarily disclose all matters in the internal control over financial
reporting for Non-Entity Government-wide Cash that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions
are matters coming to our attention relating to significant deficiencies in the design or operation
of the internal control that, in our judgment, could adversely affect FMS’ ability to record,
process, summarize, and report financial data consistent with the assertions by management in
the schedule referred to above. Material weaknesses are reportable conditions in which the
design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that would be
material in relation to the schedule being audited may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. We noted the following matter involving the internal
control and its operation that we consider to be a reportable condition. However, we do not
believe this reportable condition is a material weakness.


Offices in 15 states and Washington, DC               2
Effectiveness of Computer Controls

FMS relies on extensive information technology (IT) systems to administer Government-wide
cash. Internal controls over these operations are essential to ensure the integrity, confidentiality,
and reliability of critical data while reducing the risk of errors, fraud and other illegal acts.

Our review of information technology controls covered general and selected application controls.
General controls are the structure, policies and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls, system
software controls, application software development and change controls, segregation of duties
and service continuity controls. Application controls involve input, processing, and output
controls related to specific IT applications.

We performed a review of the computer controls at the Hyattsville Regional Operations Center
(HROC) and Kansas City Regional Operations Center (KROC) using the Federal Information
Systems Controls Audit Manual (FISCAM). Our review included general control testing of the
Treasury Check Information System (TCIS), Central Accounting System (STAR), and
Government On-Line Accounting Link II/Citrix (GOALS II/Citrix) applications.

For several years there have been IT general controls weaknesses at FMS in this area, and most
recently it was focused on the Hyattsville Regional Operations Center. FMS continues to make
progress and we commend FMS for the effort and improvement in the IT controls environment.
Our testing revealed that there are still existing general control weaknesses that do not effectively
(1) prevent unauthorized access to and disclosure of sensitive information, or (2) ensure that
connectivity to systems/applications are available during a disaster. Collectively these findings
indicate the lack of fully effective entity-wide security management. Our detailed findings and
recommendations will be provided to management in a separate sensitive but unclassified
management letter dated October 31, 2006. A summary of the key general controls findings
follows:

Entity-wide Security Management – An entity-wide program for security planning and
management represents the foundation for an entity’s security control structure and a reflection
of senior management’s commitment to addressing security risks. The program should establish
a framework and continuing cycle of activity for assessing risk, developing and implementing
effective security procedures, and monitoring the effectiveness of these procedures. Without a
well designed program, security controls may be inadequate; responsibilities may be unclear,
misunderstood, and improperly implemented; and controls may be inconsistently applied. Such
conditions may lead to insufficient protection of sensitive or critical resources and
disproportionately high expenditures for controls over low-risk resources.           FMS has
demonstrated its ability to remediate specific IT findings. However, we found a lack of
consistent application of an agency-wide strategy that should be followed in all system
implementations. The true measure of an Entity-wide Security Management is their ability to
implement enhancements to the controls environment entity-wide, on all new and existing
systems and platforms in use. Our current year audit identified that while weaknesses were
corrected in some systems and platforms, they still continue to exist in other areas. This is
evidenced by the continued existence of previously identified problems in newly reviewed areas.



                                                 3
Access Controls – Access controls are designed to limit or detect access to computer programs,
data, equipment, and facilities to protect these resources from unauthorized modification,
disclosure, loss or impairment. Such controls include logical and physical security controls.
Although prior access control findings have been substantially addressed, additional access
control weaknesses were identified this year. A comprehensive access control security program,
including increased management oversight, is needed to fully address the administration of
access controls in order to increase the reliability of computerized data and decrease the risk of
destruction or inappropriate disclosure of data.

Service Continuity – Contingency planning should address critical services to system resources
to ensure that operations will continue in the event of a disaster or other service interruptions.
Such plans and procedures should be a key part of business continuity plans. We noted issues
with connectivity during a disaster and system failover exercise as well as system unavailability
and downtime issues related to the TCIS application.

Management Response and Our Comments

Management has responded to our report and the full response is included in the attachment to
this report. Management disagreed with the characterization of our findings as a reportable
condition but recognized that the deficiencies in general controls must be corrected and will
establish the corrective actions as soon as possible.

We have carefully reviewed management’s response, however we have not changed our
conclusion that general controls weaknesses existed in access controls and service continuity,
and the continued existence of previously identified problems in newly reviewed areas is evident
of the lack of fully effective entity-wide security management. Further, we continue to conclude
that these weaknesses are a reportable condition.


                        ***************************************

This report is intended solely for the information and use of the management of FMS, the
Department of the Treasury Office of Inspector General, OMB, the Government Accountability
Office and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
October 31, 2006




                                                4
                   Independent Auditor’s Report On Compliance and Other Matters


To the Office of Inspector General
 of the U. S. Department of the Treasury and the
 Commissioner of the Financial Management Service


We have audited the Schedule of Non-Entity Government-wide Cash of the U. S. Department of
the Treasury’s Financial Management Service (FMS), as of September 30, 2006, and have issued
our report thereon dated October 31, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and applicable provisions of Office of Management and Budget (OMB)
Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

The management of FMS is responsible for complying with laws and regulations applicable to
Non-Entity Government-wide Cash. As part of obtaining reasonable assurance about whether
the Schedule of Non-Entity Government-wide Cash is free of material misstatement, we
performed tests of its compliance with certain provisions of laws and regulations, noncompliance
with which could have a direct and material effect on the determination of schedule amounts and
certain other laws and regulations specified in OMB Bulletin No. 06-03. We limited our tests of
compliance to those provisions, and we did not test compliance with all laws and regulations
applicable to FMS.

The results of our tests of compliance disclosed no instances of noncompliance with the laws and
regulations described in the preceding paragraph or other matters that are required to be reported
under Government Auditing Standards and OMB Bulletin No. 06-03.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FMS, the
Department of the Treasury Office of Inspector General, the OMB, the Government
Accountability Office and Congress, and is not intended to be and should not be used by anyone
other than these specified parties.


a1
Calverton, Maryland
October 31, 2006


Offices in 15 states and Washington, DC         5
               U. S. DEPARTMENT OF THE TREASURY,
                FINANCIAL MANAGEMENT SERVICE
         SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH
                           (In Thousands)




                                                              September 30,
                                                       2006                   2005

Cash, Foreign Currency and Other Monetary
         Assets (Notes 1 and 2)                  $ 44,243,218          $ 28,433,173




            The accompanying notes are an integral part of these schedules.

                                            6
                   U. S. DEPARTMENT OF THE TREASURY,
                    FINANCIAL MANAGEMENT SERVICE
       NOTES TO SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH
                           September 30, 2006 and 2005



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity

The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
(Treasury). FMS’ mission is to improve the quality of the Federal government’s financial
management. FMS’ commitment and responsibility is to help its customers achieve success.
FMS does this by linking program and financial management objectives and by providing
financial services, information, advice, and assistance to its customers. FMS serves taxpayers,
Treasury, federal program agencies, and government policy makers.

Non-entity accounts are those accounts that FMS holds but are not available to FMS in its
operations. For example, FMS accounts for certain cash that the Federal Government collects
and holds on behalf of the U. S. Government or other entities. This schedule includes the non-
entity government-wide cash accounts.

Basis of Accounting

The standards used in the preparation of the accompanying schedule are issued by the Federal
Accounting Standards Advisory Board (FASAB), as the body authorized to establish generally
accepted accounting principles for federal government entities. Accordingly, the accompanying
schedules are prepared in accordance with generally accepted accounting principles.

The accompanying schedule is different from the financial reports, prepared by FMS pursuant to
OMB directives that are used to monitor and control FMS’ use of budgetary resources.

Intra-governmental Financial Activities

The financial activities of FMS are affected by, and are dependent upon, those of the U. S.
Department of the Treasury and the Federal Government as a whole. Thus, the accompanying
schedules do not reflect the results of all financial decisions and activities applicable to FMS as if
it were a stand-alone entity.


NOTE 2 – NON-ENTITY CASH, FOREIGN CURRENCY, AND OTHER MONETARY
ASSETS

Non-entity cash, foreign currency, and other monetary assets include the Operating Cash of the
Federal Government, managed by Treasury. Also included is foreign currency maintained by
various U. S. and military disbursing offices.




                                                  7
                  U. S. DEPARTMENT OF THE TREASURY,
                   FINANCIAL MANAGEMENT SERVICE
      NOTES TO SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH
                          September 30, 2006 and 2005



NOTE 2 – NON-ENTITY CASH, FOREIGN CURRENCY, AND OTHER MONETARY
ASSETS (CONTINUED)

Operating Cash of the Federal Government represents balances, net of outstanding checks, from
tax collections, customs duties, other revenue, federal debt receipts, and other various receipts
net of cash outflows for budget outlays and other payments.

Operating Cash of the Federal Government is held in the Federal Reserve Banks (FRBs), foreign
and domestic financial institutions, and in U. S. Treasury Tax and loan accounts. U. S. Treasury
Tax and Loan Accounts include funds invested through the Term Investment Option program
and the Repo Pilot program. Under the Term Investment Option program Treasury agrees that
funds will remain in the account for the specified period of time. Under the Repo Pilot program
Treasury “guarantees” that invested funds will remain in the account for the predetermined term
of each investment. However, under both programs Treasury reserves the right to call the funds
prior to maturity under special circumstances.

Operating Cash of the Federal Government held by depositary institutions is either insured (for
balances up to $100,000) by the Federal Deposit Insurance Corporation or collateralized by
securities pledged by the depositary institution, or through securities held under reverse
repurchase agreements.




               This information is an integral part of the accompanying schedules.

                                               8
ATTACHMENT




    9
